Audit of Locally Incurred Costs
Under the Red Sea Component of the
USAID/Egypt-Financed Egyptian
Environmental Policy Program

Audit Report No. 6-263-02-001-F

February 3, 2002




                   Cairo, Egypt
U.S. AGENCY FOR
 INTERNATIONAL
  DEVELOPMENT

RIG/Cairo


February 3, 2002

MEMORANDUM
FOR:              Alan Davis, Director, USAID/Egypt/EI/E
                  Gary Kinney, Director, USAID/Egypt/PROC

FROM:             Darryl T. Burris, RIG/Cairo /s/

SUBJECT:          Audit of Locally Incurred Costs Under the Red Sea Component of
                  the USAID/Egypt-Financed Egyptian Environmental Policy
                  Program (Audit Report No. 6-263-02-001-F)

This is our final report on the subject audit. We reviewed your comments to our
draft report and included them as Appendix II to this report.

The report contains one recommendation for USAID/Egypt to request the Egyptian
Environmental Affairs Agency to assign a USAID-financed Jeep to an
Environmental Affairs Agency office along the Red Sea coastline. Based on your
comments to our draft report, USAID/Egypt has taken final action on
Recommendation No. 1.

I appreciate the cooperation and courtesy extended to my staff by USAID/Egypt
and its contractors during the audit.




                                                                                   1
Table of   Summary of Results                                               3
Contents
           Background                                                       3

           Audit Objectives                                                 4

           Audit Findings                                                   4

              Do the local accounting and procurement systems, including
              the systems to account for procured equipment, meet USAID
              guidelines?                                                   4

                     Local accounting system                                4

                     Local procurement system                               5

              Are expenditures reasonable and supported by documentation?   6

           Management Comments and Our Evaluation                           6

           Appendix I – Scope and Methodology                               7

           Appendix II – Management Comments                                8




                                                                                2
Summary of   The Regional Inspector General/Cairo performed this audit of locally incurred
Results      costs under the Red Sea component of the USAID/Egypt-financed Egyptian
             Environmental Policy Program to determine whether (1) local accounting and
             procurement systems meet USAID guidelines and (2) locally incurred
             expenditures are reasonable and supported (page 4).

             Local procurement policies met USAID guidelines, but while performing end use
             checks on USAID-financed property, we found one Jeep that was not being used
             as intended (page 5). To address this issue we recommend that USAID/Egypt
             request the Egyptian Environmental Affairs Agency to assign the Jeep to an
             Environmental Affairs Agency office along the Red Sea coastline (page 6).

             In addition, the International Resources Group had not submitted to
             USAID/Egypt an Annual Report of Government Property in Custody as required.
             International Resources Group officials agreed and took action to submit the
             required report (page 5).

             Finally, locally incurred disbursements were reasonable and supported by
             documentation (page 6).



Background   The U.S. Government provides assistance to developing countries through a
             variety of mechanisms, including nonprofit organizations and contractors based in
             the United States. Many of these organizations have offices overseas. While the
             costs incurred by these organizations are subject to the same regulations applied to
             U.S. costs, when measured against the total expenditures of a large U.S.-based
             grantee or contractor, the locally expended amounts may not be considered
             material and, therefore, not audited.

             The Regional Inspector General/Cairo audited costs incurred by the International
             Resources Group under the Red Sea component of the USAID/Egypt-financed
             Egyptian Environmental Policy Program. This Program includes $110 million in
             cash transfers to the Government of Egypt as agreed-upon policies are
             accomplished, and $60 million in technical assistance to further policy formulation
             and implementation. Under this policy program, the International Resources
             Group operates a Program Support Unit that provides the Egyptian Environmental
             Affairs Agency with most of its technical assistance needs, including needs related
             to natural resources management and conservation of the Red Sea coral reef
             ecosystem.




                                                                                                3
Audit            RIG/Cairo performed this audit to answer the following questions:
Objectives
                    1. Do the local accounting and procurement systems, including the systems to
                       account for procured equipment, meet USAID guidelines?

                    2. Are expenditures reasonable and supported by documentation?

                 The scope of our audit covered expenditures incurred from October 1, 2000, through
                 September 30, 2001. A full discussion of the audit scope and methodology is in
                 Appendix I.



Audit Findings   Do the local accounting and procurement systems, including the
                 systems to account for procured equipment, meet USAID
                 guidelines?
                 We did not determine whether the local accounting system meets USAID
                 guidelines because the system is not used to either accumulate all of the
                 International Resources Group’s project-related costs or to produce contract
                 reimbursement billing invoices that are sent to USAID. The local procurement
                 system meets USAID guidelines, but the International Resources Group did not
                 prepare and submit to USAID/Egypt an Annual Report of Property and one
                 USAID-financed vehicle was not being used as intended. The following sections
                 provide more detail on the results of our audit.

                 Local Accounting System

                 The International Resources Group’s local accounting system is not used to
                 accumulate all of its costs on the project or to produce billing invoices to USAID.
                 Instead, the accounting system aims only to record locally incurred project-related
                 disbursements in an Excel spreadsheet. These disbursements are summarized
                 monthly and forwarded to the International Resources Group’s headquarters along
                 with original disbursement vouchers. The headquarters office then enters the
                 locally incurred disbursements into its accounting system along with project-
                 related, headquarters-incurred costs. Once all costs have been entered into the
                 headquarters’ accounting system, headquarters prepares an invoice of incurred
                 costs and submits the bill to the International Resources Group’s Program Support
                 Unit in Cairo. The Cairo office then reviews the invoice and submits it to
                 USAID/Egypt for payment.

                 Although we did not determine whether the local accounting system meets USAID
                 guidelines, we did note that the Program Support Unit had adequate internal


                                                                                                      4
controls over its disbursements, including proper segregation of duties, as well as
adequate controls over the preparation of its general ledger.

Local Procurement System

The Program Support Unit’s procurement policies met USAID’s guidelines, and
the policies were being followed. For example, consistent with USAID’s
procurement regulations, the Support Unit’s procurement policies said that for
purchases in excess of $2,500 at least three competitive bids must be received and
that source, origin, nationality, and shipping requirements must be met. Moreover,
the policies included excerpts from Chapter 311 of USAID’s Automated
Directives System, which provides guidance on local procurements. Besides
having procurement policies that were consistent with USAID’s, the International
Resources Group’s inventory listing of USAID-financed property as well as an
inventory of property transferred to the Government of Egypt were complete and
accurate. However, we did identify the following issues.

       Annual Report of Government Property

The International Resources Group’s contract with USAID requires it to submit an
Annual Report of Government Property. The Program Support Unit, however,
was unaware of the requirement and had not submitted the property report to
USAID/Egypt.

Annual property reports are important because mission controllers are responsible
for forwarding them to USAID/Washington’s Central Accounting and Reporting
office. This office is responsible for maintaining the general ledger accounts for
capitalized property and operating materials and supplies, which are then reported
on USAID’s financial statements. Hence, if annual inventory reports of
government-owned property in custody of contractors are not submitted to USAID,
then inventory values will not be recorded in USAID’s general ledger, and their
absence could result in a misstatement of property /inventory values in USAID’s
financial statements.

Although the International Resources Group’s Program Support Unit had not
prepared the required annual property report, it did take corrective action during
our fieldwork to prepare and submit the report to USAID/Egypt. Consequently, no
additional action on USAID’s part is needed.

       Use of USAID-Financed Vehicle

While performing end use checks on four Jeep Cherokees that had been bought by
the International Resources Group and transferred to the Environmental Affairs
Agency, we found that one Jeep was not being used as intended. That is, although
the Jeeps were purchased to support the government’s Red Sea Rangers and to



                                                                                      5
                 patrol the Red Sea coastline, one vehicle had been assigned personal license plates
                 and was being driven in Cairo by an Environmental Affairs Agency official.

                 Although project officials said that the lack of the one Jeep was not currently
                 hindering the project’s implementation, the officials did say that more vehicles will
                 be needed to transport additional Red Sea Rangers that will be hired during the
                 next phase of the Egyptian Environmental Policy Program and to support the
                 expansion of the Program along the Red Sea coast.

                 The procurement justifications for the four Jeeps showed that the Jeeps were
                 purchased for the benefit of the Red Sea Rangers. Moreover, USAID’s grant
                 agreement with the Government of Egypt for the Egyptian Environmental Policy
                 Program specifies, “Any goods or services financed under this Agreement, unless
                 otherwise agreed in writing by USAID, will be devoted to the Agreement until the
                 completion or termination of the Agreement…”. Accordingly, based on the
                 procurement justifications and USAID’s grant agreement, the Jeep being driven in
                 Cairo with personal license plates should be returned to an Environmental Affairs
                 Agency office where it can be used by the Rangers to patrol the Red Sea coastline.

                      Recommendation No. 1: We recommend that USAID/Egypt request the
                      Egyptian Environmental Affairs Agency to assign the USAID-financed
                      Jeep being driven in Cairo to an Environmental Affairs Agency office
                      along the Red Sea coastline (e.g., EEAA/Hurghada or EEAA/El Quesir)
                      and to assign it governmental license plates.


                 Are expenditures reasonable and supported by documentation?
                 Our review of 57 judgmentally selected vouchers covering the period from
                 October 1, 2000 through September 30, 2001, showed that the International
                 Resources Group’s disbursements are reasonable and supported by documentation.
                 However, we did question $106 in porter fees, which were charged to USAID
                 under the contractor’s living quarter allowances account.

                 Officials from the International Resources Group agreed and prepared a journal
                 voucher to treat the $106 in porter fees as an un-billable expense. Consequently,
                 no additional action on USAID’s part is needed.




Management       USAID/Egypt agreed with our recommendation and requested the Egyptian
Comments and     Environmental Affairs Agency to assign the USAID-financed Jeep to an office along
Our Evaluation   the Red Sea coastline and to assign it governmental license plates. Based on the
                 Mission’s comments, final action has been taken on Recommendation No. 1.



                                                                                                     6
                                                                                      Appendix I




Scope and     Scope
Methodology
              The audit was performed in accordance with generally accepted government auditing
              standards and assessed whether the International Resources Group’s local accounting
              and procurement systems, including the systems to account for procured
              equipment, met USAID guidelines and whether locally-incurred disbursements
              were reasonable and supported by documentation.

              Fieldwork was performed at the International Resources Group’s Program Support
              Unit in Cairo and Hurghada, Egypt from October 14 through October 28, 2001, and
              covered approximately $2 million in disbursements between October 1, 2000 and
              September 30, 2001. The audit scope included:

              •   Controls over the procurement and disbursement processes;
              •   57 locally-incurred disbursements totaling $300,000;
              •   7 procurement transactions totaling $34,000; and
              •   Supporting documentation for procurement and disbursement transactions.

              The audit did not cover costs incurred by the International Resources Group’s
              headquarters office in the United States.

              Methodology

              To determine whether the International Resources Group’s local procurement
              system met USAID guidelines, we interviewed International Resources Group and
              Program Support Unit officials and reviewed controls over the procurement
              process. To test the local procurement system, we judgmentally-selected a sample
              of seven procurement transactions, reviewed supporting documentation, and
              performed tests to ensure that competition, when required, was being used and that
              source, origin, and nationality requirements were met. In regards to USAID-
              financed property in custody of the International Resources Group, we performed
              tests, including end use checks, to assess the accuracy of inventory listings and to
              determine whether commodities were being used as intended.

              To determine whether project disbursements were reasonable and supported by
              documentation, we interviewed International Resources Group officials, reviewed
              controls over the disbursement process, judgmentally selected a sample of 57
              expenditures, and examined documentation, which supported those transactions.




                                                                                                 7
                                                                                                            Appendix II




Management
Comments


                    UNITED STATES AGENCY for INTERNATIONAL DEVELOPMENT



    CAIRO, EGYPT



MEMORANDUM

                                                                                       January 27, 2002

For:    Darryl T. Burris, RIG/Cairo

From: Alan Davis, Director, EI/E /s/

CC:     Willard Pearson, Director
        Anthony Vance, AD/EI
        Homi Jamshed, FM

Subject: EI/E comments on Audit of Locally Incurred Costs Under the Red Sea Component of the USAID/Egypt-Finance
Egyptian Environmental Policy Program (EEPP)



EI/E agrees with the recommendation of the subject audit to request the Egyptian Environmental Affairs Agency (EEAA) to
assign the USAID-financed jeep currently being driven in Cairo to an EEAA office along the Red Sea coastline and to assign
it governmental plates. EI/E sent a copy of the draft audit report to the EEAA Chief Executive Officer on December 6, 2001
and subsequently followed up in person with a EEAA staff member to request that the GOE comply with the
recommendations of the report. A copy of the letter to EEAA is attached for your information. EI/E considers that the
requested actions have been taken and that the report can be closed. Thank you again for your professionalism and
flexibility in implementing this audit.




USAID Building Building
Plot 1/A off El-Laselki Street
New Maadi, Cairo - Egypt
Postal Code #: 11435




                                                                                                                             8
